                                                   2 0 0 4



S e m i a n n u a l       R e p o r t

Office of the Inspector General




                October 1, 2003 ~ March 31, 2004
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations;
and (3) inefficiencies in TVA programs
and operations.

If you want to report any matter
involving TVA programs, operations,
or employees, you should call the
OIG Hotline or write the Inspector
General’s office at the address or
number listed on the back cover.
                                   Tennessee Valley Authority
                                  Office of the Inspector General



         Message From the Inspector General

           As we continue to mark the 25th Anniversary of the Inspector General Act, we devote a portion of this
report to note the TVA OIG accomplishments over the last 18 years. Reflecting on the contributions we have
added to TVA over these many years demonstrates the value of independent reviews of TVA programs and
personnel. On our contract audit efforts alone (including preaward audits), our office has identified on average
about $30 million annually in savings and potential avoided costs since 1986. While the work of the OIG has
contributed to TVA’s “bottom line,” that is only part of the story. Much of our work focuses on strengthening
controls at TVA in significant ways which cannot always be measured in dollars and cents. This is particularly
critical given widely reported corporate failures in recent years.

         As reflected in this semiannual report, we continue to both add to TVA’s “bottom line” and to encourage
implementing and maintaining proper internal controls over TVA programs, practices, and systems. Our
preaward contract audits identified $12 million in potential savings, contract compliance audits identified nearly
$5 million in questioned costs, and we found that TVA had miscalculated and misapplied indirect cost recovery
rates that resulted in underrecovery of $9.4 million of TVA’s indirect costs from the Department of Energy in
connection with the tritium program. On the control side, we examined TVA’s 2003 financial statements and
found no material problems, recommended enhancement of the enterprise-wide risk management program, and
completed five audits that concluded that TVA’s information technology security system has improved due in part
to an increased emphasis on incorporating security best practices.

         This semiannual report comes with a new feature, “Highlights,” which is designed to summarize the
report and provide a helpful key to matters of interest to our stakeholders. We are dispensing with the hard copy
of the report in favor of the e-government format of a compact disc and access on our website,
www.oig.tva.gov, from which the entire report can be printed if desired. We are interested in feedback on this
new feature.

        I am gratified by the support for our work from the TVA Board, TVA management, and Congress. We
appreciate this support and are committed to continuing the OIG tradition of adding value to the work of TVA as
we have for all these many years.




                                                                                  Richard W. Moore
                                                                                  Inspector General
                                                                                  April 30, 2004
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      4

TVA’s Strategic Plan                                                                                13

Audits                                                                                              15

Investigations                                                                                      23

Legislation and Regulations                                                                         32




Appendices                                                                                          34

Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          35

Appendix 2 Audit Reports Issued                                                                     36

Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   39

Appendix 4 Audit Reports With Corrective Actions Pending                                            41

Appendix 5 Investigative Referrals and Prosecutive Results                                          43




Highlights                                                                                          44




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, investigations, and other projects. In accordance with our mission, our reviews
are designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified over $30 million in recover-
ies, fines/penalties, potential savings, questioned costs, or funds which could be put to
better use, as outlined in the chart below.


                                   Statistical Highlights
                  October 1, 2003 ~ March 31, 2004
                    Audit Reports Issued                              39
                    Questioned Costs                         $14,127,000
                    Funds Put to Better Use                  $11,904,000
                    Funds Recovered/Disallowed               $11,150,000
                    Investigations Opened                            162
                    Investigations Closed                             76
                    Fines/Recoveries/Restitution/Savings      $4,285,000
                    Criminal Actions                                   6
                    Administrative Actions (No. of Subjects)          75



Our 39 audits and 30 other audit-related projects during this reporting period resulted in
significant questioned costs and identification of areas for improvement. Highlights for
this semiannual period included identification of (1) about $4.7 million in questioned
costs and $12 million in funds which could be put to better use from our contract
audits, (2) needed improvements in TVA’s calculation and application of indirect cost
recovery rates, (3) about $9.4 million in underrecovered costs from the Department of
Energy (DOE) for the tritium program, and (4) needed improvements in the areas of
information technology (IT) security and TVA’s enterprise-wide risk management
program. We also noted many positives in TVA activities. For example, our review of
TVA’s external audit for fiscal year (FY) 2003 identified no material problems with the
external auditor’s performance of the audit, and we noted TVA has made improvements
in its network monitoring process and increased the emphasis on incorporating security
best practices when implementing new IT equipment.




page 1                                                      October 1, 2003 ~ March 31, 2004
                                                          Executive Summary



During this reporting period, our special agents were commissioned with full law
enforcement authority under the Homeland Security Act of 2002 and the Attorney
General Guidelines for Inspectors General with Statutory Law Enforcement. We also
increased our focus on identifying and seeking prosecution of fraud. Investigative high-
lights included sentencing of an individual who submitted falsified documents to obtain
a $100,000 economic development loan, estimated avoided future workers’ compensa-
tion costs exceeding $857,000, and termination of a TVA employee whose credit card
misuse exceeded $25,000. We also continued our participation on three interagency
task forces––Terrorism, Environmental Crimes, and Health Care Fraud. These task
force arrangements allow individual agencies to pool resources to more effectively
combat crime.




                                                                          Definitions
                                                               Q u e s t i o n e d C o s t s - A cost that
                                                               is unnecessary, unreasonable,
                                                               unsupported, or an alleged
                                                               violation of law, regulation,
                                                               contract, etc.
                                                               Unsupported Costs - A
                                                               questioned cost that is not
                                                               supported by adequate
                                                               documentation.
                                                               F u n d s P u t t o B e t t e r U s e - Funds
                                                               that could be used more
                                                               efficiently by implementing
                                                               recommended actions.
                                                               D i s a l l o w e d C o s t s - A cost that
                                                               management agrees should not
                                                               be charged to TVA.




TVA Office of the Inspector General                                                      page 2
T VA P r o f i l e



TVA was created during 1933. President Franklin Roosevelt asked Congress to create
“a corporation clothed with the power of government but possessed of the flexibility
             and initiative of a private enterprise.” On May 18, 1933, Congress passed
             the TVA Act, creating TVA as a federal corporation whose primary
             purposes are to provide flood control, navigation, and electric power in the
             Tennessee Valley region.

             Today TVA is the nation’s largest public power company. TVA’s power
             facilities include 11 fossil plants, 29 hydroelectric dams, 3 nuclear plants,
             6 combustion turbine plants, a pumped-storage facility, and 17,000 miles
of transmission lines. TVA also produces energy from three renewable sources––sun,
wind, and methane gas from waste. The TVA service area covers 80,000 square miles
in the Southeastern United States, including almost all of Tennessee and parts of
Mississippi, Kentucky, Alabama, Georgia, North Carolina, and Virginia. By providing
wholesale power to 158 municipal and cooperative power distributors, and by directly
serving 62 large industries and government installations in the Valley, TVA supplies the
energy needs of 8.5 million people.

As a regional development agency, TVA not only supplies affordable, reliable power, but
also supports a thriving river system and stimulates sustainable economic development
in the public interest. TVA manages the nation’s fifth largest river system. TVA dams
are part of a totally integrated resource management system where each dam operates
in relationship to the others for multiple purposes and public benefits, including minimiz-
ing flooding, maintaining navigation, providing recreational opportunities, and protecting
water quality in the 41,000-square-mile watershed.

TVA contributes to the Valley economy chiefly by keeping power rates competitive,
which helps attract and retain industries that provide quality jobs in the region. TVA
also helps communities promote sustainable economic development by providing assis-
tance in job creation and retention and productivity improvements via capital invest-
ment, support of business incubators, specialized technical services and advice, and
recruitment for new and existing industries.




page 3                                                      October 1, 2003 ~ March 31, 2004
                                         Office of the Inspector General



Office Authority

Created by the TVA Board of Directors during 1985, the TVA OIG became statutory
under the Inspector General (IG) Act Amendments of 1988. The authority to appoint
the TVA IG was transferred to the President in November 2000 by Public Law
No. 106–422.

The IG is responsible for conducting audits and investigations relating to TVA programs
and operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board. The IG’s authority includes
conducting audits or investigations the IG deems necessary or desirable, issuing
subpoenas, administering oaths, and granting confidentiality to individuals who provide
information to the OIG.

Organization

The OIG’s primary location is in the TVA headquarters in Knoxville, Tennessee. The OIG
also has a 12-person Inspections unit located in Chattanooga, Tennessee, and a
1-person office at the Browns Ferry Nuclear Plant in Alabama. During this reporting
period, the OIG consisted of three primary components: Audits, Investigations, and
Inspections. In addition, the OIG has separate offices for Human Resources and Legal
Counsel.

AUDIT OPERATIONS

Audit Operations (AO) conducts and/or supervises comprehensive financial and per-
formance audits of TVA programs and operations and makes recommendations to
ensure that program objectives and operational functions are achieved effectively and
efficiently. AO develops an annual audit plan to enable effective alloca-
tions of audit resources to issues, programs, operations, and activities
that expose TVA to significant risks and/or vulnerabilities.




TVA Office of the Inspector General                                                page 4
Office of the Inspector General



AO consists of three departments––Contract Audits, Financial/Operational Audits, and
Information Technology Audits.

 Contract Audits has lead responsibility for contract compliance and preaward audits.

   In addition, this group performs reviews of TVA contracting processes and provides
   claims assistance and litigation support.

 Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial

   statement audits performed by TVA’s external auditor; (2) reviews of TVA’s internal
   controls related to financial reporting, operational efficiency, and compliance with
   laws and regulations; and (3) operational reviews to assess the results and economy
   and efficiency of TVA programs.

 Information Technology Audits has lead responsibility for audits relating to the

   security of TVA’s IT infrastructure, application controls, and general controls
   associated with TVA systems. This group also performs operational reviews of the
   effectiveness of IT-related functions. In addition to its audit mission, IT Audits is
   responsible for developing and supporting an independent OIG computer network.


AO refers possible fraud or other wrongdoing by contractors, employees, or others
identified during its audits to Investigative Operations for further review. As needed, AO
also provides data mining and other assistance to or performs joint projects with the
Inspections and Investigations units.




page 5                                                       October 1, 2003 ~ March 31, 2004
                                              Office of the Inspector General



INVESTIGATIVE OPERATIONS

Investigative Operations (IO) conducts and coordinates investigative activity related to
fraud, waste, and abuse in TVA programs and operations. The activities investigated
include possible wrongdoing by contractors, employees, loan recipients,
and others. IO maintains liaisons with federal and state prosecutors, and
reports to the Department of Justice whenever the OIG has reasonable
grounds to believe there has been a violation of federal criminal law. IO
works with other investigative agencies and organizations on special
projects and assignments, including interagency law enforcement task
forces on terrorism, the environment, and health care.

During this reporting period, IO employees received full law enforcement authority
pursuant to Section 812 of the Homeland Security Act of 2002 and the Attorney
General Guidelines for Inspectors General with Statutory Law Enforcement issued on
December 8, 2003. During a commissioning ceremony in January 2004, United States
District Court Judge Thomas W. Phillips administered the oath to our law enforcement
agents. That ceremony recognized two milestones in the TVA OIG: (1) the receipt of
full statutory law enforcement authority and (2) a new investigative initiative to identify
and eradicate fraud against and within TVA.




                                      January 2004 Commissioning Ceremony




TVA Office of the Inspector General                                                     page 6
Office of the Inspector General



INSPECTIONS

The Inspections unit, which is staffed by auditors and investigators, was formed at the
beginning of FY 2004. This unit functions in the model of a task force whose primary
mission is to identify fraud against TVA and seek prosecution of those responsible for
that fraud. By combining the respective talents of auditors and agents in a single unit,
we can more effectively pursue complex fraud cases. In addition, Inspections also will
conduct policy and program evaluations to promote economy and efficiency in the
management and administration of TVA programs and to prevent and detect fraud,
waste, and abuse. In accordance with the Quality Standards for Inspections, the objec-
tives of inspections include providing a source of factual and analytical information,
monitoring compliance, measuring performance, assessing the efficiency and effective-
ness of operations, and/or conducting inquiries into allegations of fraud, waste, abuse,
and mismanagement.

During this period, Charles A. Kandt, Assistant Inspector General for Inspections, was
called up to active duty in the Middle East. Mr. Kandt is a Lt. Colonel in the Army
Reserves and has been a JAG officer for 23 years. During his absence, G. Donald
Hickman, Assistant Inspector General for Investigations, is serving a dual role in heading
up both Investigations and Inspections.




page 7                                                     October 1, 2003 ~ March 31, 2004
                                                           Office of the Inspector General




                                                   Inspector General




                                                                                           Human Resource
        Legal Counsel
                                                                                              Manager




     Assistant Inspector                           Assistant Inspector                            Assistant Inspector
      General (Audits)                            General (Investigations)                       General (Inspections)


                                                                                                           Evaluations & Special
           Contract Audits                                 Financial Investigations
                                                                                                                 Inquiries

           Financial/Operational                           Information Technology
           Audits                                          Investigations

           Information Technology
                                                           Internal Investigations
           Audits



                                                       Contacts

  Inspector General                                                   Financial/Operational Audits Manager
  Richard W. Moore . . . . . . . . . . .(865) 632-4120                Vacant . . . . . . . . . . . . . . . . . . . .(865) 632-2272

  Legal Counsel                                                       Information Technology Audits Manager
  Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197           Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730

  Human Resource Manager                                              Audit Quality Manager
  Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718          Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-2272

  OIG Media Relations                                                 Information Technology Investigations
  Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505           Manager
                                                                      Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584
  Assistant Inspector General (Audits)
  Ben R. Wagner . . . . . . . . . . . . . .(865) 632-2272             Internal Investigations Manager
                                                                      C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
  Assistant Inspector General (Investigations)
  G. Donald Hickman . . . . . . . . . .(865) 632-7720                 Financial Investigations Manager
                                                                      Michael G. Duncan . . . . . . . . . . .(423) 751-7821
  Assistant Inspector General (Inspections)
  Charles A. Kandt . . . . . . . . . . . .(423) 751-4420              Evaluations & Special Inquiries Manager
                                                                      Deborah A. Kearnaghan . . . . . . .(423) 751-3113
  Contract Audits Manager
  David P. Wheeler . . . . . . . . . . . .(865) 632-4770




         Hotline to report fraud, waste, and abuse: 1-800-323-3835
                       OIG website: http://oig.tva.gov



TVA Office of the Inspector General                                                                                         page 8
   Office of the Inspector General



   The Inspector General Act––Recognizing 25 Years of
   Accomplishments

                            The IG Act became law on October 12, 1978, “to create independent
                            and objective units” for the following purposes:

                               To conduct and supervise audits and investigations relating to
                            the programs and operations of their agencies;

Major General von Steuben      To provide leadership and coordination and recommend policies
       for activities designed (1) to promote economy, efficiency, and effectiveness in the
       administration of and (2) to prevent and detect fraud and abuse in, such programs
       and operations; and

    To provide a means for keeping the head of the establishment and the Congress fully

       and currently informed about problems and deficiencies relating to the administration
       of such programs and operations and the necessity for and progress of corrective
       action.


   Because of problems in its nuclear program, the TVA Board adopted a resolution on
   October 18, 1985, creating an IG position at TVA. Then Board Chairman Charles H.
   “Chili” Dean stated “we need to develop more permanent systems for receiving and
   investigating employee concerns. It appears that the formation of an Office of the
   Inspector General within the agency, which would report to the Board and to the
   Congress, would offer such a permanent vehicle.” Director John Waters added, “A
   highly qualified Inspector General who occupies a position of independence, power, and
   prestige within this organization should help to promote the efficiency and increase the
   effectiveness of all TVA activities.”




   page 9                                                          October 1, 2003 ~ March 31, 2004
                                         Office of the Inspector General



TVA OIG accomplishments over the past 15 years include the following.

 In total, our contract audit efforts, including preaward audits, have identified since

   1986 on average about $30 million annually in savings and potential avoided
   costs. We have performed over 260 preaward audits, where our objective is to
   determine if the contractor’s proposed costs are fairly stated and provided infor-
   mation regarding the contractor’s proposals to management to help in the                    Norman Zigrossi
                                                                                           First Inspector General
   negotiation of the best deal for TVA. Taken in conjunction with our findings,
   management actions, including contract negotiations and decisions, have led to over
   $328 million in savings for TVA prior to contract award. Similarly, we have
   conducted over 300 postaward contract audits which have identified
   overbillings, duplicate charges, overstated rates, ineligible charges, etc.,
   and TVA management has disallowed or recovered nearly $105 million.

 The OIG and TVA management share a commitment to improve the operation                     WIlliam Hinshaw
                                                                                         Second Inspector General
   and cost effectiveness of TVA’s workers’ compensation program, which pays
   out roughly $60 million annually. In addition to working collaboratively on initiatives to
   identify and eliminate unnecessary costs, our investigations of potential worker’s
   compensation fraud have resulted in 42 convictions, nearly $6 million in recover-
   ies, and over $71 million in avoided future costs. These convictions primarily
   resulted from individuals who were receiving benefits but failed to disclose to the
   Office of Workers’ Compensation Programs (OWCP) that they were employed                     George Prosser
                                                                                           Third Inspector General
   elsewhere.

 We have committed significant resources to assessing vulnerabilities in TVA’s IT

   infrastructure, including penetration testing, pre-assessments, self-assessments,
   vulnerability assessments, and security audits. Our undertakings have significantly
   helped TVA in its efforts to identify risks and take remedial steps which are key to
   TVA’s ability to comply with the Federal Information Security Management Act.

 We have devoted numerous resources to conducting operational reviews of
                                                                                           Richard Chambers
                                                                                         Fourth Inspector General
   various TVA programs such as economic development loans, health benefits,
   materials management, safety, dam safety, executive compensation and benefits,




TVA Office of the Inspector General                                                  page 10
Office of the Inspector General



   contracting processes, setting of power rates, facilities, and the nuclear
   decommissioning fund. As a result of our reviews, TVA has made numerous
   process improvements that enable TVA to operate more effectively and efficiently.
   For example, our review of the nuclear decommissioning fund found TVA could save
   an estimated $49 million in management fees over the life of the fund if TVA modified
   its investment strategy. TVA has since made modifications to its investment strategy.

 Implementing and maintaining proper internal controls over TVA programs, practices,

   and systems has been a focal point for OIG and TVA management, especially in light
   of the corporate failures in recent years. The OIG has devoted significant resources
   to performing internal control reviews. These reviews have been in areas such as
   purchasing cards, hospitality expenditures, contributions, long-term debt, special
   financing activities, travel, accounts payable, tax-equivalent payments, revenue,
   billing, and other financial practices. We have also worked with TVA on being
   proactive with establishment of internal controls. At the request of TVA, we have
   performed pre-implementation reviews of new systems to ensure proper controls are
   included when a system is implemented. The results of these reviews have allowed
   TVA to remediate identified deficiencies in internal controls which will ultimately help
   TVA voluntarily meet the intent of the Sarbanes-Oxley Act of 2002.

 Our investigations into potential contractor fraud in per diem payments and the coal

   area have resulted in nearly 30 convictions and roughly $8 million in recoveries. In
   the per diem area, we have identified contractor employees who falsely certified they
   had a permanent residence elsewhere so they could receive a temporary living
   allowance while working at TVA. In the coal area, we found overbilling, questionable
   coal weighing techniques, product substitutions, and fraud.


On October 14, 2003, President George W. Bush met with the Inspectors General to
honor and recognize the 25th anniversary of passage of the IG Act. President Bush
applauded the IGs for their dedication to their mission of combating fraud, waste, and
abuse to make programs work better for the people. He also commended the
community’s vigilance to remain “agents of positive change.”




page 11                                                     October 1, 2003 ~ March 31, 2004
                                             Office of the Inspector General



On December 1, 2003, the President signed a joint congressional resolution which
commended the IGs for their efforts during the past 25 years. That resolution recog-
nized the many accomplishments of the IGs in preventing and detecting waste, fraud,
abuse, and mismanagement; commended the IGs and their employees for their dedica-
tion and professionalism; and reaffirmed the role of IGs in promoting economy,
efficiency, and effectiveness in the administration of the programs and operations of the
federal government. We are proud to be a part of that tradition.




                                      Meeting with President Bush




TVA Office of the Inspector General                                               page 12
T V A’s S t r a t e g i c P l a n



While the OIG maintains independence from TVA operations and management, we are
committed to promoting TVA’s success. TVA’s fundamental mission––to provide
affordable and reliable electric power, environmental stewardship, and leadership in
sustainable economic development for the people of the Tennessee Valley––has
remained unchanged for over 70 years. In today’s changing environment, TVA faces
many challenges in preserving its mission and remaining financially sound. The OIG
recognizes these challenges and is committed to continuing and enhancing our
presence in areas that will assist TVA in meeting its mission.

In January 2004, the TVA Board approved the TVA Strategic Plan. This Plan provides a
framework for preserving TVA’s core mission and remaining financially sound in a
                                       competitive market. The plan addressed changes
                                       in TVA’s business and regulatory environment;
                                       focused on the five vital areas of river system
operations, generation, transmission, customer products and services, and economic
development; and reflected upon financial implications of the environment changes.
TVA plans to focus on the following four areas for the next several years:

 Developing new, more highly differentiated prices, services, and customer contract

   terms that more closely tie the cost and the risk of each TVA product to the contract
   terms and pricing.

 Addressing the range of issues related to wholesale market design and transmission

   pricing, including how TVA will interface with the markets that are expected to
   surround the service area, as well as how TVA will price transmission
   services within the Valley when distributors can choose other suppliers.

 Accelerating debt reduction so that TVA has the financial flexibility needed

   to thrive in a more competitive environment.

 Maintaining and operating generation and transmission assets to continue

   to fulfill supply obligations in a safe and reliable manner.




page 13                                                      October 1, 2003 ~ March 31, 2004
                                                          T V A’s S t r a t e g i c P l a n



OIG activities have been supportive of TVA’s strategic direction in the past as reflected
throughout this and prior reports and will continue to do so in the future. An obvious
and quantifiable contribution the OIG makes is the monetary savings and recoveries
that are a direct result of our audits and investigations. Contributions from our audits
and investigations also have resulted in improvements in (1) the effectiveness and
efficiency of various TVA programs such as workers’ compensation, economic develop-
ment, and environmental management; (2) internal controls over financial reporting;
(3) contracting practices; and (4) physical and cyber security of TVA’s infrastructure. We
will continue to undertake projects, whether initiated by the OIG or requested by TVA
management, which can contribute to TVA’s success.




TVA Office of the Inspector General                                                page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other stake-
holders. During this reporting period, we completed 39 audits which identified over
$14 million in questioned costs and almost $12 million in funds which could be put to
better use. We also identified numerous opportunities for TVA to improve program
operations. Our audits included (1) pre- and postaward contract audits, (2) other
financial-related audits, (3) IT reviews, and (4) operational audits.

PREAWARD CONTRACT AUDITS IDENTIFY $12 MILLION IN
POTENTIAL SAVINGS

We completed five preaward audits that identified $11.9 million in potential savings
opportunities. During this reporting period, TVA management successfully negotiated
$5.8 million in savings as a result of preaward audits issued during this and previous
reporting periods. Highlights of the more significant preaward audits follow.

 We determined a contractor’s cost proposal to provide services to TVA’s

   Transmission/Power Supply program was not consistent with how the
          company accounted for its direct labor costs and could result in TVA paying
          excessive labor costs. Also, the contractor’s proposal had overstated its
          indirect and payment bond costs. Based on our recommendations, TVA
          agreed to allow the contractor to bill a craft labor markup that included
          recovery of all costs (nonmanual labor and indirect costs) and to reimburse the
          contractors actual payment bond costs. We estimated the changes will save
          TVA about $5.8 million over the five-year contract term.

 We reviewed the cost proposals submitted by three contractors to provide engineer-

   ing support services. We determined one contractor’s proposal included (1) over-
   stated labor markups, direct charge billing rates, and labor rate ranges; and
   (2) excessive incentive bonuses. We estimated TVA could save $4.9 million over the
   planned five-year contract term by negotiating our audit findings. We determined



page 15                                                      October 1, 2003 ~ March 31, 2004
                                                                                  Audits



   the second contractor’s proposal was fairly stated except for an overstated direct
   charge billing rate which we estimated would cost TVA an additional $1.2 million
   over the contract term. The third contractor’s proposal was fairly stated.
   Negotiations for the contract awards are ongoing.

CONTRACT COMPLIANCE AUDITS IDENTIFY NEARLY $5 MILLION
IN QUESTIONED COSTS

During this reporting period, we completed 14 contract compliance audits that identified
about $4.7 million in ineligible and unsupported costs. Management generally agreed
with our findings and has taken or plans to take corrective action. Highlights of some
of the more significant audits follow.

 We reviewed the costs billed by two right-of-way maintenance contractors and

   found (1) one contractor had billed TVA an estimated $638,000 for costs not sup-
   ported by its payroll records and (2) the other contractor had not retained sufficient
   supporting documentation to determine if it had complied with the
   cost provisions of the contract. We also determined the companies
   had not paid their employees in accordance with the labor provisions
   of the contract even though they had certified they had done so.
   TVA management agreed with our findings and plans to (1) recover
   any overbillings and (2) require documentation to support future billings.

 We reviewed the proposed adjustments to provisional nonmanual labor and General

   & Administration billing rates submitted by two affiliated companies and determined
   that one company had overstated its rates. We estimated the overstatement had
   reduced a refund amount owed to TVA by $262,913. TVA management negotiated
   all but about $400 of the finding amount.

 We determined TVA was overbilled about $34,700 by a contractor that provided

   right-of-way clearing and restoration services. The overbilling occurred because of
   the contractor’s use of incorrect terrain classifications and miscellaneous billing
   errors. TVA management concurred with our findings and plans to recover any
   amounts due TVA.




TVA Office of the Inspector General                                                  page 16
Audits



 We determined a contractor providing steam generator replacement services had

  overbilled TVA $3 million for labor, materials, supplies, and bonuses. In addition, we
  found the contractor had (1) sold certain materials, supplies, and equipment to TVA
  for $1.64 million and bought them back for $250,000; and (2) shipped TVA-owned
  equipment to other non-TVA projects. TVA management is reviewing the audit
  issues to determine the actions it plans to take.

 We determined a contractor providing Selective Catalytic Reduction catalyst had

  understated a material cost adjustment due TVA by about $233,000 because (1) the
              contractor’s actual material costs did not agree with the costs included in
              its adjustment calculations and (2) the contractor had not included all
              catalyst that had been sold to TVA. Negotiations with the contractor are
              ongoing.

 We determined a contractor providing Fossil and Hydro Modifications and

  Supplemental Maintenance had overbilled TVA about $243,000 because it had
  (1) incorrectly calculated union fund contribution amounts for certain laborers and
  (2) overpaid an employee. The contractor agreed with our findings and plans to
  issue TVA a credit for the overbilled amount.

 We reviewed a contractor’s $64,445 claim for unrecovered shop costs that it

  asserted resulted when TVA delayed scheduled outage work at a TVA dam. We
  determined all but about $4,200 of the claimed costs were not attributable to the
  dam project. TVA management is negotiating the claim.

 We determined a contractor providing staff augmentation services had overbilled

  TVA about $39,000 for (1) holiday premium pay not provided for by the contract and
  (2) labor and burden rates that were higher than provided for by the contract. TVA
  management stated that since the holiday pay had been paid in accordance with the
  contractor’s policies, the contract would be revised to allow the payment of the
  premium. TVA also planned to revise the contract to clarify TVA’s intent regarding
  the labor and burden rates and to collect any billings not in accordance with the
  contract.




page 17                                                  October 1, 2003 ~ March 31, 2004
                                                                                   Audits



 We determined TVA had overpaid a coal freight contractor about $28,000 due to

   overbilled demurrage costs and miscalculated tonnage. The contractor agreed with
   our findings and plans to issue TVA a credit for the overbilled amount. We also
   found TVA had paid the contractor over $123,000 for costs that had been verbally
   agreed to but were not provided for in the contract. We recommended and TVA
   management agreed that all costs paid by TVA should be provided for either in the
   original contract or in subsequent contract supplements.

INFORMATION TECHNOLOGY SECURITY IMPROVES

During this reporting period, we completed five audits in the IT environment pertaining
to (1) security at four TVA facilities and (2) security, software change controls, and
contingency planning for TVA’s non-electric revenue billing
system. We found improvements were needed to address
weaknesses in the following areas.

 Logical security controls designed to prevent unauthorized

   access to system programs and data, including isolation of
   critical components at one facility.

 Physical controls designed to prevent security breaches and protect equipment and

   personnel from hazards.

 Contingency planning designed to ensure a timely recovery in the event of a

   disaster.


TVA management agreed with our findings. TVA has implemented an agency-wide
effort to address security weaknesses in TVA’s existing IT infrastructure. Corrective
actions to address our findings are a part of this remediation effort.

During the security reviews, we noted improvements and an increased emphasis on
incorporating security best practices and configuration standards as TVA implemented
new IT equipment. In addition, TVA has improved its network monitoring process to
more easily identify unusual activity that could indicate possible security breaches.




TVA Office of the Inspector General                                                  page 18
Audits



NO MATERIAL PROBLEMS IN FY 2003 FINANCIAL STATEMENTS AUDIT

The independent auditors, PricewaterhouseCoopers LLP (PwC), issued an unqualified
opinion on TVA’s FY 2003 financial statements on January 23, 2004. On that same
day, PwC issued a report on its consideration of TVA’s internal control over financial
reporting and results of tests of compliance with certain provisions of laws and regula-
tions for the year which ended September 30, 2003. In meeting our statutory responsi-
bility for the financial statement audit, the OIG assessed the external auditor’s
methodology, evidence, and documentation; performed supplemental tests of account-
ing records and compared the results to those of the external auditor; and examined
the independence and qualifications of the external auditor. We determined the
financial statement audit was performed in accordance with Government Auditing
Standards in all material respects.

CALCULATION AND APPLICATION OF INDIRECT COST RECOVERY
RATES NEED IMPROVEMENT

Various TVA organizations have programs in place to conduct external business
projects. These projects include work for other federal agencies under the Economy
Act, such as environmental cleanup work for the Department of Defense. Additionally,
TVA performs transmission system projects for independent power producers that will
sell electric power through TVA’s grid. As part of our annual workplan, we reviewed
how five TVA business units calculated and applied indirect cost recovery rates on a
sample of external business projects. The five business units accounted for about
83 percent of TVA’s total external business revenue of $209 million for FY 2002, which
in turn represented about 3 percent of TVA’s total operating revenues. Four of the five
business units both miscalculated and misapplied indirect cost recovery rates, under-
recovering indirect costs totaling $9.3 million from the external business customers.
TVA management agreed with our findings and will implement improvements in the
calculation and application of indirect cost recovery rates.




page 19                                                     October 1, 2003 ~ March 31, 2004
                                                                                     Audits



TVA UNDERRECOVERS FOR TRITIUM PROGRAM

TVA provides irradiation services related to tritium production at the request of DOE
under the Economy Act. We audited TVA’s billings to DOE totaling over $57.5 million
for a 39-month period and determined that (1) direct costs for the irradiation services
                       were supported by TVA records and properly billed except for
                       $47,000 inadvertently not billed and (2) miscalculation and
                       misapplication of indirect cost recovery rates resulted in under-
                       recovery of $9.4 million of TVA’s indirect costs from DOE. TVA
management agreed with our findings and plans to take appropriate action in future
negotiations with DOE.

TVA ENTERPRISE-WIDE RISK MANAGEMENT PROGRAM
NEEDS ENHANCEMENT

TVA’s policy on risk management defines (1) Risk Management Committee (RMC)
responsibilities and composition; (2) the Chief Risk Officer’s (CRO) role and primary
duties; (3) business unit responsibilities for risk identification, mitigation, and control; and
(4) Board responsibilities for approving risk tolerance levels.

We assessed the adequacy of TVA’s enterprise-wide risk management (ERM) practices
using the Committee of Sponsoring Organizations’ ERM
framework to compare TVA’s program to other successful
ERM practices. Key elements of an effective program include:

 Visible executive and Board involvement.

 Clear vision of what ERM will look like when implemented––a defined end-state.

 Linkages to strategic objectives.

 CRO and RMC that support, not supplant, management’s responsibility for

   managing risks.

 Consistent deployment throughout each organization by centralized leadership and a

   common framework.




TVA Office of the Inspector General                                                     page 20
Audits



 Defined and communicated policies and procedures.

 Ongoing oversight and continuous improvement.

 Clear articulation of roles and responsibilities.


While TVA has had considerable success, we recommended TVA’s Board of Directors
enhance ERM sponsorship by executive management, develop a top-down implemen-
tation strategy, and reassess key aspects of the current ERM policy. We also recom-
mended certain actions by the CRO for program enhancement. TVA management is in
the process of readdressing its approach to ERM.

TVA GENERALLY COMPLIES WITH THE NATIONAL ENERGY
CONSERVATION POLICY ACT (NECPA)

The NECPA of 1978 and Executive Order 13123 adopted numerous energy efficiency
requirements, including energy consumption reductions to be implemented by federal
agencies, including TVA. We determined TVA was generally complying with the require-
ments established by the NECPA and Executive Order 13123. However, TVA may have
trouble meeting the energy use per gross square foot target for office buildings and
related structures in part due to increased personnel density, sustainable design princi-
ples not always fully incorporated, and increased energy use at the Chattanooga Office
Complex, primarily attributed to TVA’s sublease of space in the complex to a third party.

TVA management agreed with our findings and agreed to promote sustainable building
design for all new facilities and modifications to existing facilities and investigate ways to
implement energy reduction requirements in existing and future lease agreements.

OIG PROVIDES INFORMATION TO ASSIST TVA IN IDENTIFYING CONTROLS

The TVA Board of Directors, as part of its commitment to meet the intent of the
Sarbanes-Oxley Act of 2002, established a Corporate Accountability and Disclosure
Plan in February 2003. The plan included establishing a certification process for TVA’s
disclosure and financial reporting documents, establishing procedures to further the
independence of TVA’s outside auditor, establishing a code of disclosure and financial




page 21                                                      October 1, 2003 ~ March 31, 2004
                                                                                 Audits



ethics, creating a Disclosure Control Committee, and creating a program to train the
appropriate individuals on the act and the plan.

As part of this effort, TVA has begun a process to document and evaluate financial
disclosure controls and procedures, as well as the internal controls over financial
reporting, to ensure effectiveness in both design and operation. To assist this effort, we
provided TVA’s Chief Financial Officer with controls information from OIG reviews
completed during FYs 2000 through 2003.




TVA Office of the Inspector General                                                   page 22
Investigations



Summary of Representative Investigations

OIG special agents and managers were commissioned with full law enforcement
authority under the Homeland Security Act as part of our initiative to identify and eradi-
cate fraud affecting TVA programs and operations. Our efforts in this area include com-
bining audit and investigative resources in an Inspections unit designed to operate
under a task force model to seek out fraud. In addition, we have assigned investigators
as “road agents” to serve as key contacts at specific TVA facilities in order to more
effectively identify cases, become more familiar with TVA operations, and establish key
business contacts. To better focus on fraud, we also are referring more administrative
allegations, such as personnel issues, to management for resolution. While it will take
time for this initiative to get off the ground, we expect that over the next two years our
efforts will begin producing results and will serve as a strong deterrent against fraud.

During the past six months, we closed 76 investigations, including allegations and
concerns received from ratepayers, TVA management and employees, governmental
and congressional staffs, and OIG auditors. Our investigations, including task force
projects, resulted in (1) almost $4.3 million in recoveries, projected savings, and
fines/penalties; (2) three subjects indicted; and (3) three subjects convicted. Significant
investigative activities are highlighted below.

ALABAMA MAN ORDERED TO PAY NEARLY $100,000 FOR MINORITY
ECONOMIC DEVELOPMENT LOAN FRAUD

During this reporting period, an Alabama resident was sentenced to one year and one
day in prison and ordered to pay $95,754 in restitution to TVA. The defendant pled
guilty to a felony count for providing false financial statements to TVA in order to obtain
an economic development loan. In addition to defrauding TVA, the defendant also pled
guilty to one felony count for providing false financial statements to a federally insured
bank to obtain another loan. The defendant directed one of his employees to enter
false financial transactions into the company’s accounting records, which caused the
company’s net profit and cash position to be overstated. Based on the false documen-
tation he submitted, TVA approved a $100,000 loan from the Minority Business




page 23                                                     October 1, 2003 ~ March 31, 2004
                                                                       Investigations



Development Fund. The purpose of the loans was to finance business startup,
including building construction. Subsequent to receiving the loans, the company filed
for bankruptcy under Chapter 11. The ordered restitution will cover the outstanding
balance of the TVA loan.

WORKERS’ COMPENSATION INVESTIGATIONS SAVE TVA OVER $857,000

During this reporting period, we provided the OWCP with results from a computer
match which revealed several workers’ compensation recipients may be
receiving higher benefits than they are entitled to receive. We also
determined a TVA employee submitted a false claim for workers’
compensation benefits.

Computer Match

In accordance with the Computer Matching and Privacy Protection Act of 1988, we
conducted a computer match between (1) earnings records reported to the state of
Tennessee and (2) workers’ compensation records from the Department of Labor
                     OWCP. The purpose of the match was to identify beneficiaries
                     potentially receiving for the same period both (1) wage loss compen-
                     sation for disability and (2) wages. That information was then used to
                     determine whether individuals receiving workers’ compensation
benefits may have underreported or failed to report their wages to OWCP.

Our review disclosed that the claimants generally reported their earnings. We found
several cases, however, where OWCP had not adjusted the claimants’ benefits based
on their earnings. The results from the computer match raised questions about 16 TVA
workers’ compensation recipients. We found that in one case OWCP had already ter-
minated the individual’s benefits. After reviewing the matching results, we opened
investigations into nine individuals who appeared to have earnings at least 25 percent
greater than their rated loss of wage-earning capacity. (One factor to be considered in
deciding whether to modify a claimant’s wage-earning capacity is whether they are
earning at least 25 percent more than the job they were rated in.) OWCP subsequently
terminated benefits for three of those individuals, as follows.




TVA Office of the Inspector General                                                page 24
Investigations



 One individual, a former TVA laborer, was rated as a salesman trainee but was

   employed as a store manager with an annual salary which exceeded $40,000.
   During 2001, this individual reported his employment as a store manager to OWCP.
   During October 2003, OWCP issued a final notice terminating his compensation.
   We estimate the avoided future costs for this claimant are $354,622.

 One claimant, a former welder, was rated as a respiratory therapist. During 2002, he

   reported earning $7,000 per month as a pain management specialist, and during
   2003 he reported earnings of $44 per hour as a physician’s assistant. During March
   2004, OWCP terminated his compensation for wage loss. We estimate the avoided
   future costs for this claimant are $376,552.

 A third claimant, a former TVA laborer, was rated as a part-time personal care

   attendant. However, the computer match indicated he was earning substantially
   higher wages, roughly $90,000 in one year. OWCP also obtained information that
   this individual had earned roughly $183,600 over a two-year period. Accordingly,
   during February 2004, OWCP issued a final decision concluding his medical
   condition had improved, enabling him to go from part-time to full-time personal care
   attendant, and he was no longer entitled to workers’ compensation benefits. We
   estimate the avoided future costs for this claimant are $126,340.


The projected long-term cost avoidance as a result of benefits being terminated for
these three individuals exceeded $857,500. In addition, TVA has requested OWCP to
consider terminating benefits for two other individuals.

False Workers’ Compensation Claim

Our investigation showed a TVA employee submitted a false workers’ compensation
claim. The employee submitted a claim that he was injured while working at a TVA site.
However, during a subsequent interview, the employee admitted he had injured himself
at home. The employee was terminated, and TVA has controverted his claim.




page 25                                                    October 1, 2003 ~ March 31, 2004
                                                                     Investigations



CONTRACTOR EMPLOYEES CHARGED CRIMINALLY

Two contractor employees were charged criminally during this reporting period. In the
first case, we investigated an allegation that anonymous, obscene telephone calls were
being made to a female minor from a telephone at a TVA fossil plant.
Our investigation identified the person who was making the calls as a
laborer working for a TVA contractor. When interviewed, he
confessed and his employment was terminated. He subsequently
pled guilty in Alabama state court to a charge of harassing communications. He
received a 90-day suspended sentence, two years’ probation, a $250 fine, and was
ordered to complete a sex offender program as part of his probation.

In the second case, a former contractor who worked as a biologist at TVA was
arraigned in Tennessee state court for submitting false timesheets. After his employ-
ment with the contractor ended, the defendant entered a locked TVA building at night
and faxed falsified timesheets to the contractor which showed he was still working.
The contractor paid the former employee for several timesheets, and TVA reimbursed
the contractor before the falsifications were discovered.

EMPLOYEE MISUSES GAS CREDIT CARDS

Our investigation found a TVA employee was misusing Wright Express (WEX) credit
cards, which are issued in TVA vehicles to purchase gas. The employee, who was
                        terminated, used three different WEX cards at area service stations
                        to put gas in cars belonging to friends and people he did not
                        know. He would approach people at the gas station and offer to
                        double the amount of gas they wanted in exchange for cash. For
                        example, if the person wanted $10 in gas he would take the $10
                        cash and put $20 in gas in the vehicle by charging it on the WEX
card. The estimated loss to TVA exceeded $25,000. We have referred this case for
prosecutive consideration.




TVA Office of the Inspector General                                                page 26
Investigations



EMPLOYEES MISUSE COMPUTER RESOURCES

During an investigation of an alleged child pornography case––that was not
substantiated––the OIG discovered substantial misuse of TVA’s computing resources.
                          The misuse included employees installing unauthorized
                          software; chatting on-line with others for extended periods of
                          time; sending inappropriate, sexually related e-mails; and
                          downloading sexually explicit material. The misuse involved
                          approximately 50 TVA employees and contractors working in
the fossil organization. Some individuals simply received and read the material, while
others distributed the inappropriate material to other employees and contractors.
Management responded to our findings by taking disciplinary action against the
identified people, including oral and written warnings, suspensions, and terminations.

PLANT EMPLOYEES USED INCORRECT ITEM DESCRIPTIONS TO ORDER
UNAUTHORIZED ITEMS

In an investigation of purchasing activities at a fossil plant, we determined that eight
TVA employees intentionally used incorrect item descriptions to order unauthorized
items, namely pocket knives. They used descriptions such as “packing cutters,”
“cleaning scrapes,” and “hole punch” when ordering pocket knives, because they
believed the knives would not be ordered if they correctly described them. The knives
ordered with incorrect item descriptions cost TVA roughly $3,000. The most expensive
item ordered was a collectible knife in a custom gift tin, which sold for $45.50. The
vendor generally identified the requested pocket knife by the correct item number used
and included the incorrect item description on the invoices submitted to TVA.
Management issued warning letters to the employees involved and conducted training
to ensure the employees understand TVA’s procurement policy.

TWO TVA EMPLOYEES MISUSE TVA VEHICLES

We completed two cases involving misuse of a TVA vehicle. In one case, we found a
senior TVA manager used his TVA-assigned vehicle on a daily basis, including when
driving between home and work. The manager was under the impression that he was




page 27                                                     October 1, 2003 ~ March 31, 2004
                                                                    Investigations



authorized to use his assigned vehicle in this manner. He was issued a warning letter
and guidance was issued to other managers reminding them of the rules regarding
vehicle usage.

In the other case, a supervisor violated TVA policy by driving a TVA vehicle
while under the influence of a prescription medication and was involved in
a one-car accident. Personal firearms were found in the vehicle at the
scene of the accident, also in violation of TVA policy, although he had a
permit for the weapons. The supervisor claimed he was in effect sleep-
walking due to the side effects of the medication, and he did not know
how the guns got in the car. We also found that he had been on temporary assignment
since 1999, and he had used his assigned vehicle for personal purposes when at his
official duty station. The supervisor retired from TVA before disciplinary action was
taken.

CONTRACTOR DID NOT WILLFULLY FALSIFY QUALITY
ASSURANCE DOCUMENT

We investigated a possible falsification of a Quality Assurance (QA) document by a
Quality Control (QC) Inspector working for a contractor on the Browns Ferry Nuclear
Unit 1 restart project. The QC Inspector allegedly signed off on a work order step
without performing the required cleanliness verification. Our investigation did not find a
willful intent to falsify a QA document. Rather, neither of the contractor QC Inspectors
on site during the shift in question could wear a respirator, which was required to
conduct the verification. The QC Inspector discussed the matter with others and
believed he could rely on a third party to conduct the required observation.

HARASSMENT ALLEGATIONS LEAD TO DISCIPLINE

Two harassment investigations during this reporting period led to discipline. In one
case, we investigated an allegation that a foreman harassed a subordinate employee by
acting inappropriately toward her. We did not substantiate the allegation of harassment
by the foreman. However, we developed information that the subordinate employee
used a racial slur and showed inappropriate pictures in the workplace. Based on the




TVA Office of the Inspector General                                                page 28
Investigations



information developed during our investigation, TVA management counseled the
foreman and suspended the subordinate employee for five days.

In the second case, while our investigation did not reveal harassment, it did find inap-
propriate actions by a supervisor, including making inappropriate comments and berat-
ing employees. Based on our investigation, TVA management altered the supervisor’s
work assignments, issued a warning letter, and monitored the supervisor’s behavior.

Task Forces

We participate on three interagency law enforcement task forces in the Eastern District
of Tennessee involving terrorism, health care, and the environment. Pooling multi-
agency resources, both state and federal, allows us to enhance limited law enforcement
resources and pursue the most effective remedies against individuals and companies
who violate the law.

JOINT TERRORISM TASK FORCE

On February 24, 2004, Federal Bureau of Investigation (FBI) Director Robert S. Mueller
testified before the Senate Select Committee on Intelligence. He listed several success
                stories in the efforts to identify terrorists and dismantle terrorist networks.
                He attributed these successes to the close coordination and information
                sharing “with other members of the Intelligence Community, our overseas
                partners, and with the essential force multipliers––state and local law
                enforcement officials who participate on our 84 Joint Terrorism Task
                Forces (JTTFs).” As stated by Mr. Mueller, “the JTTFs have played a
central role in virtually every terrorism investigation, prevention, or interdiction within the
United States. . . . JTTFs team up FBI agents with police officers, members of the
Intelligence Community, Homeland Security, and other federal partners to coordinate
counterterrorism investigations and share information. They are also a critical conduit
between the FBI and the officer on the beat.”

We continued our participation on the JTTF led by the FBI’s Knoxville Field Division.
Because of TVA’s critical energy-related infrastructure, we have devoted one special




page 29                                                       October 1, 2003 ~ March 31, 2004
                                                                     Investigations



agent full-time to the task force and have committed audit support on an as-needed
basis. We will continue to support these efforts to the best of our abilities.

HEALTH CARE FRAUD TASK FORCE

TVA operates a self-insured health benefits plan, and claims of health care fraud involv-
ing TVA and others are investigated by the Health Care Fraud Task Force. The Task
Force, sponsored by the United States Attorney for the Eastern District of Tennessee,
includes representatives from the investigative arms of federal, state, and local
agencies, and Blue Cross/Blue Shield of Tennessee’s Special Investigations Unit.

In our last semiannual report, we noted that an orthopedic surgeon was found guilty of
95 counts of health care fraud-related charges after a three-week trial. The surgeon
had, among other things, submitted health care claims for nerve blocks when trigger
point injections, which are lesser reimbursable procedures, were actually performed.
During this reporting period, the surgeon was sentenced to 41 months in prison and
3 years of supervised release, and was required to make $3,183,710 in restitution to
five victim health care programs, including $139,948 to TVA. The surgeon’s practice
provided care to TVA OWCP patients for years.

ENVIRONMENTAL CRIMES JOINT TASK FORCE

The Environmental Crimes Joint Task Force, which is sponsored by the United States
Attorney for the Eastern District of Tennessee, is comprised of members from numerous
federal and state agencies. During this reporting period, one individual pled guilty as an
accessory after the fact to the illegal transportation of hazardous waste
without a manifest. During an investigation into the shipment of
hazardous waste, namely 111-trichloroethane (TCA), by truck without a
required hazardous waste manifest, the defendant told investigators
that the TCA was not a hazardous waste and could be recycled. The
company and the individual who transported the TCA had previously
pled guilty to charges of, respectively, improper storage and disposal of
the waste.




TVA Office of the Inspector General                                                 page 30
Investigations




                                                                                    Administrative and Disciplinary Actions
                                                                                       April 1, 1999 ~ March 31, 2004*
                                                                                                  T o t al = 3 9 1

                                                                                                    O ra l / W ri t t e n
                                                                                                     W a rn i n g s                                               Su s p e n s i o n s /
                                                                                                       31.25%                                                      D emo t i o n s /
                                                                                                                                                                    T ra n s f e rs
                                                       R e e m pl o y m e n t                                                                                             8%
                                                             F l ag g ed
                                                             10.25%                                                                                                           R es i g n at i o n s /
                                                                                                                                                                              R e t i re m e n t s /
                                                                                                                                                                              T e rm i n a t i o n s
                                                                                                                                                                                       10%

                                                                                                                            C o u n s el i n g /
                                                                                                                            Man ag emen t
                                                                                                                            T e c h n i qu e s
                                                                                                                                40.5%

                                                                                                *Prosecutive referrals are shown in Appendix 5.




                      Closed Cases by Area
                 October 1, 2003 ~ March 31, 2004
                             T o t al = 7 6

                                 O t h er
                                 47%
                                                                         F o s s i l Po w e r
                                                                                24%




          R i v e r Sy s t e m
          O p e ra t i o n s &              T V A N u cl ear
          E n v i ro n m e n t                   18%
                   11%




                                                                        Sources of Hotline Calls Warranting Further OIG Action
                                                                                  October 1, 2003 ~ March 31, 2004
                                                                                               T o t al = 5 4




                                                                                                  An o n y m o u s                                                              F o rm e r T V A
                                                                                                       26%                                         O t h e r Ag e n c i e s       & F o rm e r
                                                                                                                                                             4%                   C o n t ra c t
                                                                                                                                                                                E m pl o y e e s
                                                 C o n t ra c t                                                                                                                      17%
                                                E m pl o y e e s
                                                     7%




                                                                                                                                                                          G e n e ra l P u b l i c
                                                                                      T V A E m pl o y e e s                                                                      15%
                                                                                             31%




page 31                                                                                                                                        October 1, 2003 ~ March 31, 2004
                                               Legislation and Regulations



               During this reporting period, legislative areas of interest included matters
               pertaining to the IG community and TVA, as well as the TVA OIG budget.

               THE IG COMMUNITY

               The TVA IG, Richard W. Moore, serves on the Legislation Committee for
               the President’s Council on Integrity and Efficiency (PCIE). The overall
mission of this Committee is to ensure the PCIE is kept abreast of congressional
matters of interest to the IG community as a whole or which may impact OIG statutory
authority, duties, and organization. The Committee also develops, coordinates, and
represents to Congress official PCIE positions on particular legislative issues. Finally,
the Committee serves as a resource base for the IG community on congressional rules,
operation, and procedures. We shall continue to follow legislative items of interest to
the IG community and work with the PCIE in keeping Congress apprised of our views
on those matters.

TVA

We continued to follow issues of interest to TVA, including federal energy legislation
which included a provision to restructure the TVA Board. We believe the pros
and cons of this proposed legislation are being fully explored, and look
forward to working with both TVA and Congress in these matters. We also
responded to requests for information from members of Congress and their staffs.

THE OIG BUDGET

In Budget Passback Guidance to TVA, dated November 25, 2003, the Office of
Management and Budget (OMB) stated that TVA’s OIG will be proposed to be funded
through a separate annual appropriation account beginning in FY 2005. As stated by
OMB, this will enhance the independence of the TVA OIG as well as remove the
appearance of a conflict of interest. The funding source for this activity will continue to
be TVA revenues. OMB stated that TVA’s OIG will create a separate budget request to
be submitted to OMB with TVA’s annual budget request for approval prior to its
transmission to Congress. TVA responded on December 3, 2003, that appropriations
language was neither necessary nor appropriate.




TVA Office of the Inspector General                                                  page 32
Legislation and Regulations



The President’s budget for FY 2005 as submitted to Congress included a separate
appropriation account for the TVA OIG to be funded by TVA with power funds. We
understand there is disagreement about whether an amendment to the law is neces-
sary in order for the TVA OIG budget to be reviewed and approved by Congress. We
continue to believe having the OIG budget reviewed and approved by Congress, like
other OIGs, is necessary to avoid any appearance of a lack of independence caused by
the agency having unreviewable control over the OIG budget. TVA is the only
“establishment” agency, where the IG is appointed by the President, whose budget is
not reviewed and approved by Congress. We shall continue to work with Congress,
TVA, and OMB to resolve this issue.




page 33                                                October 1, 2003 ~ March 31, 2004
APPENDICES
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     32


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         15-31


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         15-31


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            15-31


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 35                                                                      October 1, 2003 ~ March 31, 2004
                                                                                Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

CONTRACT

2003-023C
10/29/03         Duratek, Inc.

2003-059F
11/05/03         Selected Invoices Under Contracts
                 TV-98295U and 98PCG-226677
                 for Cumberland Membership
                 Electric Corporation                    $54,971

2003-063C
11/21/03         Dillard Smith Construction Company -
                 Preaward                                                         $5,800,000

2003-029C
11/25/03         Numanco, LLC                             39,056

2003-045C
12/02/03         Three Rivers Contracting

2003-046C
12/02/03         Southeastern Construction &
                 Equipment Company, LLC                   34,703

2003-022C
12/18/03         Cormetech, Inc.                         233,302     $233,302

2003-042P
01/15/04         Canal Barge Company, Inc. -
                 Contracts TR0187 and TR0297              28,126

2003-060C
01/28/04         Alstom Power, Inc. - Annual
                 Adjustment of Provisional Rates         262,913

2003-057C
02/10/04         GUBMK Constructors Contract
                 No. 99998999 (formerly Contract
                 No. 99PMJ-232187)                       242,874      242,874

2004-018C
02/20/04         Pinkerton Government Services -
                 Retroactive Pay Adjustment

2004-026C
02/20/04         Voith Siemens Hydro - Chatuge
                 Delay Claim                              60,177

2003-041C
03/05/04         Bechtel Power Contract 99999075
                 for the Removal and Replacement of
                 Sequoyah Unit 1 Steam Generators       3,068,142     110,596

2004-019C
03/09/04         Burns & McDonnell/Science
                 Applications International
                 Corporation - Preaward                                            4,903,800




TVA Office of the Inspector General                                                      page 36
Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                              QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                    COSTS       COSTS     BETTER USE

CONTRACT (continued)
2003-066C
03/18/04       Pullman Power, LLC - Subcontractor
               for Advatech, LLC - Preaward

2004-009F
03/18/04       TVA’s Travel Services

2004-021C
03/22/04       Parsons E&C/Acres International
               Corporation - Preaward

2003-004C
03/30/04       A & G Tree Service, Inc.                  $638,542

2004-020C
03/30/04       Sargent & Lundy - Preaward                                             $1,200,000


F I NA N C I A L

2003-019F-02
11/14/03       TPS Overhead Recovery

2003-024F
11/18/03       TVA’s Accounts Receivable and the
               Allowance for Doubtful Accounts

2003-019F-05
12/23/03       Administration Overhead Recovery

2003-019F-03
01/07/04       CS&M Overhead Recovery

2003-055F
01/12/04       Controls Over Reimbursable Projects for
               Independent Power Producers

2004-023F
01/26/04       Performance of IG Agreed-Upon Procedures
               for Intragovernmental Activity & Balances

2003-019F-04
01/29/04       TVAN Overhead Recovery

2003-044F
01/29/04       Tritium Program - DOE and TVA
               Interagency Agreement
               No. DE AI02 00DP00315                 9,458,235

2003-061F
02/04/04       FY 2003 Review of TVA’s
               Financial Statement Audit




page 37                                                             October 1, 2003 ~ March 31, 2004
                                                                                                 Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                    QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                          COSTS       COSTS     BETTER USE

F I NA N C I A L ( c o n t i n u e d )
2004-022F
02/05/04            Verification of Summarized Facts Data -
                    FY 2003

2004-029F
03/22/04            Review of TVA’s 1st Quarter 2004
                    Financial Information by PwC

INFORMATION TECHNOLOGY

2003-054T
11/13/03            Chickamauga Hydro Plant IT
                    Security

2003-049T
11/18/03            Bill Out Subsystem (BOSS)

2003-068T
01/22/04            Cordova Substation IT Security

2004-007T
01/26/04            John Sevier Fossil Plant DCS
                    IT Security

2003-040T
03/30/04            WBN IT Security


PERFORMANCE

2003-026P
10/02/03            Enterprise-Wide Risk Management

2003-013P
12/15/03            Coal Demurrage Costs                       $5,900

2003-067P
02/02/04            Compliance With the National
                    Energy Conservation Policy Act

2004-001F
03/09/04            Transmission/Power Supply’s Employee
                    Recognition and Safety Awards

TOTAL               39                                  $14,126,941                $586,772         $11,903,800*


* This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




TVA Office of the Inspector General                                                                              page 38
Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                     QUESTIONED COSTS
                                                              NUMBER               TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period             3               $1,829,961          $1,254,039

B.   Which were issued during the reporting period               12              $14,126,941            $586,772

Subtotals of A and B                                            15             $15,956,902          $1,840,811

C.   For which a management decision was made during
     the reporting period                                        12*             $12,595,281          $1,496,913

     (i) Dollar value of disallowed costs                        10              $10,452,834            $292,692

     (ii) Dollar value of costs not disallowed                    6               $2,142,447          $1,204,221

D.   For which no management decision has been made by
     the end of the reporting period                              3               $3,361,621            $343,898

E.   For which no management decision was made within
     six months of issuance                                       0                        $0                 $0


* The total number of reports for which a management decision was made during the period differs from the sum of
  C.(i) and C.(ii) when the same reports contain both costs disallowed and not disallowed by management.




page 39                                                                    October 1, 2003 ~ March 31, 2004
                                                                       Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                              NUMBER   DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period           0                $0

B.   Which were issued during the reporting period              3        $11,903,800

Subtotals of A and B                                            3       $11,903,800

C.   For which a management decision was made during
     the reporting period                                       1         $5,800,000

     (i) Dollar value of costs agreed to by management          1         $5,800,000

     (ii) Dollar value of costs not agreed to by management     0                $0

D.   For which no management decision has been made by
     the end of the reporting period                            2         $6,103,800

E.   For which no management decision was made within
     six months of issuance                                     0                $0




TVA Office of the Inspector General                                             page 40
Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in two contract compliance audits, three operational audits, one financial
audit, and nine IT audits have not been fully implemented; however, all are being implemented in accordance with cur-
rently established milestones.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-064T               Hydro Automation Security-HDCC
12/21/01                This report contained recommendations regarding physical and logical security of the Hydro
                        Dispatch Control Cell. TVA plans to complete final action by September 30, 2004.

2001-074T               Application Review of Pegasys
01/07/02                This report contained recommendations regarding facility access control. TVA is evaluating
                        options for addressing these recommendations.

2001-087C               Canberra Industries
04/30/02                This report included recommendations to recover ineligible costs and improve contract adminis-
                        tration. TVA has taken action to address the contract administration issues and is in the
                        process of negotiating a settlement of the ineligible costs.

2002-004C-01            Electric Power Research Institute
07/24/02                This report included recommendations to strengthen contract terms in several areas and
                        improve recordkeeping of costs incurred by the contractor. TVA is negotiating these issues with
                        the contractor.

2002-012T-01            Security Review of Nuclear Facility Access Control Systems-SQN
10/25/02                This report contained recommendations regarding facility access control. TVA plans to
                        complete final action by October 31, 2004.

2002-017T               Hydro Automation-Dams
06/25/02                This report included recommendations regarding the physical and logical security of hydro
                        automation systems at seven hydroelectric facilities. TVA management plans to complete final
                        action by September 30, 2004.

2002-025T               Security of Windows 2000/Windows XP
08/07/02                This report contained recommendations to strengthen environmental and logical controls of
                        TVA’s implementation of Windows 2000 and Windows XP. TVA management plans to complete
                        final action by September 30, 2004.

2002-043T-01            Power Billing System Security and Application Controls
01/06/03                This report included recommendations to strengthen power billing system controls. TVA
                        management plans to complete final action by September 30, 2004.

2002-051T               Information Technology Store
09/27/02                This report contained recommendations to strengthen IT Store purchase approval controls.
                        TVA management is developing a new procurement procedure to address this issue.




page 41                                                                       October 1, 2003 ~ March 31, 2004
                                                                                           Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION



2002-051V           Investment Recovery’s Program for GSA Surplus Property Redeployment
03/26/03            This audit included recommendations to determine the value of property received subject to
                    reimbursement or appropriation investment provisions of the TVA Act, limit the uses of GSA
                    surplus property to those which are consistent with GSA rules, correct the weaknesses of a
                    personal services contract forming a bartering arrangement, and improve the process for track-
                    ing property obtained through the GSA program. TVA management agreed with all of our find-
                    ings. Management is negotiating with GSA to determine an appropriate reimbursement, has
                    reevaluated the process for future GSA acquisitions, has discontinued the bartering agreement,
                    and has updated the GSA database addressing discrepancies.

2002-075E           Integrity of Selected Fossil Power Data Used in TVA’s Energy Trading Model
03/03/03            This report included recommendations to improve the integrity of selected fossil data used in
                    TVA’s energy trading decision support model. TVA management plans to complete final action
                    by the fall of 2004.

2002-092T           Fixed Asset System General Computer Controls
06/19/03            This report contained recommendations to strengthen logical controls of TVA’s Fixed Asset
                    System. TVA completed final action as of April 1, 2004.

2003-015F           Review of Completed Plant Retirements
07/28/03            This report contained recommendations to correct completed plant retirement inaccuracies,
                    improve accounting for completed plant retirements, and strengthen management’s controls
                    over retirements processing. TVA management agreed to implement most of our recommenda-
                    tions and expects to complete final action by December 31, 2004.

2003-025P           Review of Electronic Coal Supply RFP System
08/12/03            This report included recommendations to ensure Web application and database server pass-
                    word control settings comply with TVA policy and future Web application development is
                    compatible with TVA policy. TVA management plans to complete final action within the next few
                    months.

2003-032F           Integrity of Generation Data Used to Estimate Unbilled Revenue
05/20/03            This report included recommendations to improve the accuracy and integrity of generation data
                    used to estimate unbilled revenue. TVA management plans to complete final action by June 1,
                    2004.




TVA Office of the Inspector General                                                                     page 42
Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                    15
          Subjects Referred to Other Agencies or State/Local Authorities                         5


Results

          Subjects Indicted                                                                      3
          Subjects Convicted                                                                     3
          Referrals Declined                                                                     7


          As a result of our investigations, OWCP terminated wage-replacement benefits for
          three individuals, which is projected to save TVA a total of $857,514 over the
          individuals’ lifetimes.


* These numbers include task force activities.




page 43                                                                        October 1, 2003 ~ March 31, 2004
                                                                                                         Highlights



                                               MAR 31,       SEPT 30,         MAR 31,        SEPT 30,        MAR 31,
                                                2004           2003            2003            2002           2002


ANNUAL BUDGET (In Millions of Dollars)           $8.8            8.5             8.5             8.0            8.0*
CURRENT STAFFING                                  78             78              84              87             86

AUDITS
AUDITS IN PROGRESS
Carried Forward                                   37              38              35**            33            38
Started                                           36              41              41              44            43
Canceled                                           (5)             (8)             (4)             (4)           (8)
Completed                                        (39)            (34)            (34)            (40)          (40)
In Progress at End of Reporting Period            29              37              38              33            33

AUDIT RESULTS (Thousands)
Questioned Costs                            $14,127          $1,908          $1,125          $3,816          $1,780
Disallowed by TVA                            10,453             137             989             911             267
Recovered by TVA                                697           3,499             221             387             225

Funds to Be Put to Better Use               $11,904          $6,951         $34,755         $52,037         $31,874
Agreed to by TVA                              5,800           6,551          37,969          44,944           6,069
Realized by TVA                              11,708               0          38,172          16,014           6,090

OTHER AUDIT-RELATED PROJECTS
Completed                                         30              15              36              16            12
Cost Savings Identified/Realized (Thousands)       0               0               0               0             0

I N V E S T I G AT I O N S * * *

INVESTIGATION CASELOAD
Opened                                           162             100              87             78             93
Closed                                            76              92              75             89            114
In Progress at End of Reporting Period           221             135             127            115            126

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                     $3,412          $100            $879            $961            $233
Savings                                           863           875             366               8           1,175
Fines/Penalties                                    10           421              56              86             0.1

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                           8              21              15              18            22
Actions Taken (# of Subjects)                     75              24              16               7             6
Counseling/Management
   Techniques Employed (# of Cases)               13              21              16              24            15

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                          17              63              12              19              5
Indicted                                           3               4               6               9              5
Convicted                                          3              10               4               4              3

  * Reduction represents the transfer of certain benefit costs to corporate rather than organizational
    expense accounts.
 ** Adjusted from previous reporting period.
*** These numbers include task force activities.




TVA Office of the Inspector General                                                                            page 44
                     Tennessee Valley Authority
                    Office of the Inspector General



Help Track Down Fraud,
Waste, and Abuse at TVA




     Contact the OIG Hotline
        1-800-323-3835
 To report:
 •   Contract or computer fraud          •    Theft or misuse of TVA
 •   Computer misuse or crimes                property
 •   False statements or false           •    Management reprisal
     claims                              •    Workers’ compensation fraud
 •   Irregularities in financial         •    Bribery, kickbacks, or
     reporting                                gratuities
 •   Conflicts of interest and other     •    Health care fraud
     ethics violations                   •    Environmental, health, and
 •   Travel fraud                             safety violations


           For additional information, see our Web site at oig.tva.gov
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
